                                                                             Report No. DODIG 2014-029




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              F E B RUA RY 2 7 , 2 0 1 4




                     Review of Deoxyribonucleic Acid
                     (DNA) Collection Requirements for
                     Criminal Investigations




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Review of Deoxyribonucleic Acid (DNA) Collection
                                       Requirements for Criminal Investigations



February 27, 2014

Objective                                              Recommendations
We evaluated whether Department of Defense                •	 We recommend the Secretaries of the Military Departments
(DoD) and U.S. Coast Guard (USCG) authorities                and Commandant of the Coast Guard take prompt action
collected Deoxyribonucleic Acid (DNA) samples                to submit the missing 282 DNA samples required to be
from service members convicted of certain                    in CODIS.
offenses and submitted them to the United States
                                                          •	 We recommend the Secretaries of the Military Departments
Army Criminal Investigation Laboratory (USACIL)
                                                             and Commandant of the Coast Guard take prompt action
for analysis and subsequent inclusion in the
                                                             to ensure DNA sample collections for future arrestees and
Combined DNA Index System (CODIS) as federal
                                                             convicted offenders conform to DoDI 5505.14.
law and DoD Instruction (DoDI) mandate.

                                                       Management Comments
Findings                                               Overall, the Secretaries of the Military Departments and the
DoD and USCG authorities did not submit 282 of         Commandant of the Coast Guard concurred with our report and
the 3,536 required DNA samples to USACIL for           recommendations. They agreed with our recommendations to
inclusion in CODIS during our evaluation sample        promptly submit any missing DNA samples to CODIS but expressed
period of June 1, 2010, through October 31, 2012.      concern regarding their jurisdictional and legal authority to
The evaluated agencies had an overall 92 percent       collect samples from individuals no longer subject to the Uniform
compliance rate.                                       Code of Military Justice (UCMJ). We recognize there may be
                                                       hindrances in attempting to collect the missing samples. However,
                                                       we believe the Services should pursue all possible avenues in
                                                       their efforts to collect and submit the required samples to CODIS.




Visit us on the web at www.dodig.mil


                                                                                        (Project No. 2012C018) DODIG 2014-029 │ i
                   Recommendations Table
                                                                   Recommendations        Management
                                        Management                 Requiring Comment       Comments
                     Secretary of the United States Army                  2            Concur with comment
                     Secretary of the Navy                                2            Concur with comment
                     Secretary of the United States Air Force             2            Concur with comment
                     Commandant of the United States Coast Guard          2            Concur with comment




ii │ DODIG 2014-029 (Project No. 2012C018)
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                             February 27, 2014

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL			
			 MANAGEMENT AND COMPTROLLER)
		             NAVAL INSPECTOR GENERAL
		             AUDITOR GENERAL, DEPARTMENT OF THE ARMY
		             DEPARTMENT OF HOMELAND SECURITY INSPECTOR GENERAL

 SUBJECT: Review of Deoxyribonucleic Acid (DNA) Collection Requirements for Criminal 		
	         Investigations (Report No. DODIG 2014-029)

	       This final report is provided for information and use. We evaluated whether DoD and
U.S. Coast Guard authorities collected DNA samples from service members convicted of certain
offenses and submitted them to the U.S. Army Criminal Investigation Laboratory (USACIL)
for analysis and subsequent inclusion in the Combined DNA Index System (CODIS) as federal law
and DoD policy mandate.

	      We found that DoD and Coast Guard authorities did not submit 282 of 3536 required DNA
samples to USACIL for inclusion in CODIS during our evaluation sample period of June 1, 2010,
through October 31, 2012. The evaluated agencies had an overall 92 percent compliance rate.

	       We considered management comments on a draft of this report when preparing the final
report. The Secretaries of the Military Services and Commander of the Coast Guard concurred
with our recommendations to take prompt action to submit the missing 282 DNA samples
required to be in CODIS, and ensure DNA sample collections for future arrestees and convicted
offenders conform to DoDI 5505.14.

	      Management’s comments were responsive to the draft and conformed to the requirements
of DoD Directive 7650.3; therefore, additional comments are not required.

	       We appreciate the courtesies extended to the review staff. For additional information on
this report, please contact Mr. John Perryman, Director of Oversight, (703) 604-8765.




	                                             Randolph R. Stone
	                                             Deputy Inspector General
	                                             Policy and Oversight




                                                                                           DODIG 2014-029 │ iii
                  Contents
                  Introduction______________________________________________________________________________1
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Scope and Methodology_________________________________________________________________________2

                  Finding. DNA samples for 282 convicted offenders
                  were not in CODIS___________________________________________________________________4
                  Discussion________________________________________________________________________________________4
                       Army_ _______________________________________________________________________________________4
                       Navy ________________________________________________________________________________________5
                       Air Force____________________________________________________________________________________6
                       Marine Corps_______________________________________________________________________________6
                       Coast Guard_________________________________________________________________________________7
                  Summary of DNA Sample Collection Data______________________________________________________8
                  Conclusion________________________________________________________________________________________8
                  Recommendations, Management Comments and Our Response ____________________________8

                  Appendices_____________________________________________________________________________ 15
                  Appendix A. References_ ______________________________________________________________________ 15
                  Appendix B. DoDI 5505.11, List of Enclosure 2 Qualifying Offenses______________________ 18
                  Appendix C. Management Comments________________________________________________________ 21

                  Acronyms and Abbreviations______________________________________________ 31




iv │ DODIG 2014-029
                                                                                                                                     Introduction




Introduction
Objective
Our objective was to evaluate compliance with DNA collection requirements in
Department of Defense Instruction (DoDI) 5505.14, “Deoxyribonucleic Acid (DNA)
Collection Requirements for Criminal Investigations,” May 27, 2010, (Incorporating
Change 1, April 24, 2012).

We evaluated whether the Military Services (Services) and U.S. Coast Guard (USCG) law
enforcement and confinement authorities collected DNA samples from service members
convicted of certain qualifying offenses1 between June 1, 2010 and October 31, 2012,
and submitted those samples to USACIL for analysis and inclusion into the Combined
DNA Index System (CODIS). See Appendix B for a detailed list of qualifying offenses.


Background
Federal Law
Federal law authorizes the collection of DNA samples from individuals arrested, facing
charges, or convicted of crimes and from non-United States citizens detained under the
authority of the United States.2 The law requires processing DNA samples for indexing
in national databases and defines a selective process for removing individual samples
from the databases.3 The Federal Bureau of Investigation (FBI) is authorized to operate
and maintain a national database where DNA profiles4 can be compared to generate leads
in criminal investigations.5


Department of Defense Instruction
In May 2010, DoD issued DoDI 5505.14, which implemented federal law and established
requirements and responsibilities for DNA collection within DoD.6 The instruction


	1	
    Offenses generally include any Uniform Code of Military Justice (UCMJ) offense for which confinement exceeding 1 year
    may be imposed at sentencing. In the civilian justice system, these are often referred to as felonies.
	2	
    42 U.S.C. § 14135a (a)(1). See Appendix A for additional references; see also Congressional Research Service, “DNA Testing
    in Criminal Justice: Background, Current Law, Grants, and Issues,” Nathan James, December 7, 2011, Page 20, para. 1,
    lines 1-3.
	3	
    When arrest does not result in conviction, federal law mandates DNA samples be expunged upon an arrestee’s showing
    of discharge or acquittal. 42 U.S.C. § 14132(d). No provision requires expungement upon a convict’s completion of
    his/her sentence.
	4	
    Once a DNA sample is processed and put into CODIS, it is technically referred to as a DNA profile. For purposes of clarity,
    we will use the term DNA sample for the majority of this report.
	5	
    42 U.S.C. § 14132(a).
	6	
    A Directive Type Memorandum issued April 18, 2005, by the Undersecretary of Defense for Personnel and Readiness,
    guided the DNA collection process until the publication of formal DoD guidance in 2010.




                                                                                                                                  DODIG 2014-029 │ 1
Introduction



                     applies to defense criminal investigative organizations (DCIOs), other DoD law
                     enforcement organizations, confinement facilities, and the U.S. Coast Guard Investigative
                     Service (USCGIS).7

                     The instruction requires DoD law enforcement organizations, corrections authorities,
                     and the USCGIS to collect DNA samples and forward them to USACIL for inclusion
                     in CODIS. The policy generally requires collecting and submitting DNA samples on
                     any service member accused or convicted of a qualifying offense. See Appendix B for a
                     list of offenses.


                     United States Army Criminal Investigative Laboratory (USACIL)
                     USACIL, the only full-service forensic laboratory in DoD, provides forensic support
                     to DCIOs and the USCGIS. It is the DoD executive agent for DNA analysis of samples
                     collected from military arrestees and convicted offenders. USACIL provides a collection
                     kit to law enforcement organizations to collect samples. Its DNA Database Section
                     receives and processes the kits. DNA profiles developed from convicted offender and
                     arrestee DNA samples are then entered into CODIS.


                     The Combined DNA Index System (CODIS)
                     In addition to identifying the Combined DNA Index System, the acronym CODIS is
                     used generically to describe the FBI program for supporting criminal justice DNA
                     databases and the software used to operate the databases. CODIS contains DNA profiles
                     on arrestees, convicted offenders, unsolved crime scene evidence, and missing persons.

                     The National DNA Index System or NDIS is considered one part of CODIS and
                     contains DNA profiles contributed by federal, state, and local participating forensic
                     laboratories. Currently, laboratories in all 50 states, the District of Columbia, the federal
                     government, and Puerto Rico, along with USACIL, participate in CODIS. The system
                     enables state, local, and federal law enforcement crime laboratories to compare DNA
                     profiles electronically.8


                     Scope and Methodology
                     Our review assessed the Services’ and USCG’s compliance with DoDI 5505.14 since its
                     promulgation in May 2010. We focused on whether the DCIOs, other law enforcement
                     and corrections organizations, and the USCGIS complied with requirements for DNA
                     collection and submission.

                     	 7	
                            The instruction applies to the USCGIS by agreement with the Department of Homeland Security.
                     	 8	
                            CODIS and NDIS Fact Sheet, http://www.fbi.gov/about-us/lab/biometric-analysis/codis/codis-and-ndis-fact-sheet.




2 │ DODIG 2014-029
                                                                                            Introduction



Specifically, we sought to determine if DNA samples for service members convicted of
certain qualifying offenses between June 1, 2010 and October 31, 2012, were collected
and submitted to USACIL for inclusion in CODIS. People arrested, but not convicted,
may apply to have their DNA sample expunged from CODIS. Therefore, we focused
our review on persons required to be in CODIS after disposition of their criminal case
for offenses identified in Appendix B.

We asked the Services’ Judge Advocate Generals (JAG), the Staff Judge Advocate to
the Commandant of the Marine Corps, and the USCG’s JAG for information on service
members convicted of a qualifying offense between June 1, 2010 and October 31, 2012.
They identified 3,536 individuals convicted during our sample period.        We then
attempted to match those names to entries in the CODIS database.

We developed a list of required convicted offender names that were not found in CODIS
and forwarded those names back to the Service representatives for further research
and validation. We asked Service representatives to submit supporting documentation
and/or justification for missing names. Finally, we re-checked the updated information
the Service representatives sent us against the CODIS database.




                                                                                         DODIG 2014-029 │ 3
Finding




                     Finding
                     DNA samples for 282 convicted offenders were not in
                     CODIS.
                     From June 1, 2010, to October 31, 2012, there were a total of 3,536 convicted service
                     members who were required to have a DNA sample in CODIS. There were 3,254 samples
                     in CODIS, leaving a total of 282 samples (8 percent) not in CODIS.



                     Discussion
                     DoD and USCG Law Enforcement and Corrections
                     Organizations Did Not Submit 282 of the 3,536 Required DNA
                     Samples of Qualifying Offenders Within Our Sample Period
                     The JAGs provided names for 3,536 service members who were convicted of qualifying
                     offenses requiring a DNA sample in CODIS. We attempted to match each name in
                     the CODIS database. We then developed lists of “unmatched” names of convicted
                     service members we did not find in CODIS. We sent those names to the JAGs and
                     military criminal investigative organizations (MCIO) representatives for further research
                     and validation.            Additionally, we asked the JAGs and MCIOs to submit supporting
                     documentation (e.g., log entries, emails, memos, etc.) and justification for unmatched
                     names they believed to be in error.

                     After validating our findings with JAG, MCIO, and USACIL representatives, we determined
                     282 names (8 percent) of convicted offenders were not in CODIS. The overall compliance
                     rate for DNA sample collection and submission was 92 percent. Our analysis did not
                     determine the reason why samples that should have been included in CODIS were not.

                     A breakout of the individual Services and USCGIS DNA sample collection data and
                     compliance rates is shown in the figures below.9


                     Army DNA Collection Analysis
                     The Army reported 1,717 qualifying convictions within the evaluation sample period.
                     There were 1,579 matching CODIS entries. Of the 1,717 reported convictions, DNA
                     samples for 138 qualifying members were not in CODIS. The Army had a 92 percent
                     compliance rate.

                     	9	
                           Data was collected using a June 1, 2010 through October 31, 2012, evaluation sample period. Because CODIS is a fluid and
                           dynamic database system, this data reflects a “snap-shot” in time and information.




4 │ DODIG 2014-029
                                                                                                      Finding



Figure 1. Analysis of Army DNA Sample Collection Data

                        A������� �� A��� DNA C��������� D���

            2,000
                       1,717
                                          1,579
            1,500
                                                                       Total Required
                                                                       DNA Samples


            1,000                                                      Required DNA
                                                                       Samples in CODIS


             500                                                       Required DNA Samples
                                                            138        Not in CODIS


               0

                    Total Required     Required DNA     Required DNA
                    DNA Samples      Samples in CODIS    Samples Not
                                                           in CODIS



Source: Office of The Judge Advocate General of the U.S. Army and USACIL CODIS database.	


Navy DNA Collection Analysis
The Navy reported 466 qualifying convictions within the evaluation sample period. There
were 422 matching CODIS entries. Of the 466 reported convictions, DNA samples for
44 qualifying members were not in CODIS. The Navy had a 91 percent compliance rate.

Figure 2. Analysis of Navy DNA Collection Data

                        A������� �� N��� DNA C��������� D���

                        466
             500
                                           422
                                                                       Total Required
                                                                       DNA Samples
             400

                                                                       Required DNA
             300                                                       Samples in CODIS



                                                                       Required DNA Samples
             200
                                                                       Not in CODIS


             100
                                                            44

               0

                    Total Required     Required DNA     Required DNA
                    DNA Samples      Samples in CODIS    Samples Not
                                                           in CODIS


Source: United States Navy Office of the Judge Advocate General and USACIL CODIS database.


                                                                                              DODIG 2014-029 │ 5
Finding



                     Air Force DNA Collection Analysis
                     The Air Force reported 387 qualifying convictions within the evaluation sample period.
                     There were 300 matching CODIS entries. Of the 387 reported convictions, DNA samples
                     for 87 qualifying members were not in CODIS. The Air Force had a 78 percent compliance
                     rate.

                     Figure 3. Analysis of Air Force DNA Collection Data

                                        A������� �� A�� F���� DNA C��������� D���

                                  500

                                                                                           Total Required
                                            387                                            DNA Samples
                                  400

                                                               300                         Required DNA
                                  300                                                      Samples in CODIS



                                                                                           Required DNA Samples
                                  200
                                                                                           Not in CODIS

                                                                                87
                                  100



                                   0

                                        Total Required     Required DNA     Required DNA
                                        DNA Samples      Samples in CODIS    Samples Not
                                                                               in CODIS


                     Source: The Judge Advocate General of the Air Force and USACIL CODIS database.


                     Marine Corps DNA Collection Analysis
                     The Marine Corps reported 920 qualifying convictions within the evaluation sample
                     period. Of the 920 reported convictions, DNA samples for 910 qualifying members were
                     matched in CODIS, with 10 samples not found in the database. The Marine Corps had a
                     99 percent compliance rate.




6 │ DODIG 2014-029
                                                                                                       Finding



Figure 4. Analysis of Marine Corps DNA Collection Data


                A������� �� M����� C���� DNA C��������� D���

                         920                910
            1,000

                                                                        Total Required
                                                                        DNA Samples
             800

                                                                        Required DNA
             600                                                        Samples in CODIS



                                                                        Required DNA Samples
             400
                                                                        Not in CODIS


             200

                                                             10
               0

                     Total Required     Required DNA     Required DNA
                     DNA Samples      Samples in CODIS    Samples Not
                                                            in CODIS


Source: Judge Advocate Division, Headquarters Marine Corps and USACIL CODIS database.


Coast Guard DNA Collection Analysis
The Coast Guard reported 46 qualifying convictions within the evaluation sample
period. There were 43 matching CODIS entries. Of the 46 reported convictions, DNA
samples for 3 qualifying members were not in CODIS. The Coast Guard had a 93 percent
compliance rate.

Figure 5. Analysis of Coast Guard DNA Collection Data


                    A������� �� C���� G���� DNA C��������� D���

              50
                          46
                                             43

              40

                                                                        Total Required
                                                                        DNA Samples
              30

                                                                        Required DNA
              20                                                        Samples in CODIS



                                                                        Required DNA Samples
              10
                                                                        Not in CODIS
                                                              3
               0

                     Total Required     Required DNA     Required DNA
                     DNA Samples      Samples in CODIS    Samples Not
                                                            in CODIS


Source: Office of the Judge Advocate General of the Coast Guard and USACIL CODIS database.
                                                                                               DODIG 2014-029 │ 7
Finding



                     Figure 6. Summary of DNA Sample Collection Data
                                                                                     Air               Coast
                                     Description                Army      Navy               USMC                 Total
                                                                                    Force              Guard
                           Total Required DNA Samples             1717       466      387       920        46      3536
                         Required DNA Samples in CODIS            1579       422      300       910        43      3254
                       Required DNA Samples Not in CODIS           138        44        87        10         3      282
                                 Compliance Rate (%)                92        91        78        99       93        92

                     Source: The Offices of the Judge Advocates General of the Army, Navy, Air Force, and Coast Guard;
                     Judge Advocate Division, Headquarters Marine Corps; and USACIL CODIS database.


                     Conclusion
                     We conclude the Services’ and USCG’s DNA sample collection process collected and
                     submitted 92 percent of the required convicted offender DNA samples.


                     Recommendations, Management Comments and Our
                     Response
                     Overall, the Military Departments and USCG agreed with our report and recommendations.
                     We received management comments on a draft of this report. The comments addressed
                     our initial assessment numbers of samples we reported as not in CODIS. We based our
                     original numbers on information the Services’ JAGs provided us for individuals who
                     met the requirement to have DNA samples in CODIS. The management comments are
                     summarized and addressed below, and included verbatim as Appendix C.

                           1.	     We recommend the Secretaries of the Military Services and Commandant
                                   of the Coast Guard take prompt action to submit the missing
                                   282 DNA samples required to be in CODIS.

                     Army Comments
                     The Army responded that since receiving the draft report and working with our staff
                     they believed the total number of required Army DNA samples not in CODIS should
                     be reduced from 155 to 153. They also recommended an additional 10 individuals
                     be removed for various reasons.           Regarding our recommendation to take prompt
                     action to submit the missing DNA samples, the Army recommended we modify our
                     recommendation to require submitting missing samples only from individuals still
                     subject to their jurisdiction. The Army advised:

                                   “We believe that the recommendation for the Services to take action to
                                   submit the missing DNA samples needs to be modified. As noted in your




8 │ DODIG 2014-029
                                                                                                                                            Finding



                   report, you obtained the names of Service Members who were convicted
                   of qualifying offenses. The vast majority of those people have since been
                   discharged from the Services, and they are no longer subject to the
                   Uniform Code of Military Justice nor within the legal or investigative
                   jurisdiction of any of the Services’ law enforcement agencies. Given
                   this lack of jurisdiction and absent any authority to compel submission
                   of a DNA sample we do not see how this can legally be accomplished.
                   Recommend page 8 of the draft report be re-worded to “We recommend the
                   Secretaries of the Military Services and Commandant of the Coast Guard
                   take prompt action, for persons still subject to their jurisdiction, to submit
                   the missing DNA samples required to be in the CODIS.”


Our Response
We reduced the Army’s missing CODIS entries from 155 to 153 after they provided
updated information indicating criminal charges on two individuals were dismissed.
The Army recommended we remove 10 names from the list of individuals required to
have a DNA sample in CODIS. We agreed with removing six of those individuals after
reviewing the Army’s updated information.

The Army reasoned that criminal investigative case files for those four service members
reflected criminal charges that did not require DNA collection. However, conviction
data provided by the Army JAG indicated the individuals were convicted of crimes
requiring DNA collection and submission to CODIS. We subsequently identified nine
additional individuals for removal. The total number of required DNA samples not in
CODIS is 138. The Army had a 92 percent compliance rate.

We did not modify our recommendation to take prompt action to submit the missing
DNA samples required to be in CODIS. Army officials opined they lacked jurisdictional
and legal authority to collect and submit the missing samples. They said most of the
individuals we identified as not having DNA samples in CODIS had been discharged from
the Service. However, we found there are several options available to collect DNA samples
from individuals whose samples were not collected in accordance with federal law and
DoD guidance. If the individual is no longer a member of the armed forces and subject
to the Uniform Code of Military Justice (UCMJ), the Army can attempt to locate the
individual and obtain consent to provide a sample.

The Army may also attempt to obtain a sample under the authority of 42 U.S.C.
§14135(a)10 which describes several processes that could enable the collection once the
convicted person leaves UCMJ jurisdiction. For example, if the individual is on supervised


	10	
       42 U.S.C. § 14135(a), “Collection and Use of DNA Identification Information from Certain Federal Offenders.” “Authorizes
       the collection of DNA from individuals in custody who are arrested, facing charges, or convicted, and from non-U.S. person
       who are detained under the authority of the U.S.”

                                                                                                                                    DODIG 2014-029 │ 9
Finding



                  release, parole, or probation for a federal offense, the probation office responsible for
                  the supervision could collect the sample in accordance with 42 U.S.C. §14135(a). The
                  Army could investigate whether this is true for any of the individuals and coordinate
                  with that probation office. Therefore, we believe the Army should pursue all possible
                  avenues in its efforts to collect and submit the required samples to CODIS.


                  Navy/Marine Corps Comments
                  The Navy responded that after researching the original 58 missing samples we included
                  in the draft report, they were able to lower the number to 44.

                  With respect to our recommendation to submit the missing DNA samples required to
                  be in CODIS, the Navy said it plans to have NCIS collect samples of those still subject to
                  Navy jurisdiction.

                  The Marine Corps stated the research by the SJA to CMC determined that 5 members had
                  not been convicted of qualifying offenses but that 10 DNA samples could not be confirmed
                  to be in CODIS.


                  Our Response
                  We reduced the Navy’s missing CODIS entries from 58 to 44 after they provided updated
                  information regarding the original 58 samples we reported as not in CODIS. The Navy
                  had a final compliance rate of 91 percent. Additionally, we agreed with the Navy’s
                  actions in attempting to obtain samples not in CODIS. However, as we discussed in
                  our response to the Army, there are additional options available to collect the missing
                  samples, and we believe the Navy should pursue all possible avenues in its efforts to
                  collect and submit the required samples to CODIS.

                  We reduced the Marine Corps missing CODIS entries from 29 to 10. Marine Corps officials
                  provided updated information indicating 5 individuals were not convicted of qualifying
                  offenses. They also provided DNA collection kit numbers and collection dates for 14
                  individuals the USACIL CODIS Branch reported as not having DNA samples in CODIS.
                  A subsequent check with USACIL confirmed samples for those 14 individuals were
                  erroneously reported as missing and were indeed in CODIS. The Marine Corps had a final
                  compliance rate of 99 percent.




10 │ DODIG 2014-029
                                                                                                    Finding



Air Force Comments
The Air Force recommended we reduce their total number of required DNA samples
not in CODIS to 64 instead of the 87 we originally reported. They said the Air Force is
only responsible to collect and submit DNA samples on individuals when AFOSI or
Security Forces conducts the criminal investigation. The Air Force advised:

           “Our understanding of Department of Defense Instruction (DoDI) 5505.14,
           Deoxyribonucleic Acid (DNA) Collection Requirements for Criminal
           Investigations, dated May 27, 2010, Incorporating Change 1, dated April
           24, 2012, is that this publication only applies to criminal investigations
           conducted within the Air Force by AFOSI and AF Security Forces
           Investigators. It is not applicable to incidents relating from commanders
           executing their inherent responsibility for administering nonjudicial
           discipline within their units, which were included in the Air Force numbers
           for non-compliance. Additionally, criminal investigations (state and
           local) conducted outside AFOSI and Air Force Security Forces purview
           should also be removed from this listing as these are not governed by
           DoDI 5505.14.”

           “Based upon our review of our investigative data management systems,
           and our independent review of AMJAMS, we concluded that AFOSI is
           responsible for 30 of the non-compliant investigations and Air Force Security
           Forces Squadrons were responsible for 34 non-compliant investigations.
           Further, we believe that 23 of the non-compliant investigations were
           either actions taken by command officials or off-base authorities without
           AFOSI or Security Forces involvement, and should be removed because
           DoDI 5505.14 does not apply. We therefore recommend that the DoD IG
           reduce the AF non-compliant case number to 64.”


With respect to our recommendation to take prompt action to submit the missing
DNA samples required to be in CODIS, the Air Force said they would locate and attempt
to obtain consent to collect and submit the missing samples advising:

           “AFOSI will take immediate action on our 30 non-compliant investigations
           by locating and attempting to obtain consent to collect the DNA samples.
           If we obtain consent to take the DNA samples, our agents will immediately
           send them to CODIS and document the action in I2MS. If we do not obtain
           consent, we will document this action in I2MS and close the line item. Our
           opinion is that probable cause would be required to seize DNA samples
           from the subjects of these previous investigations. Since the investigations
           have been closed with judicial resolution, we would be unable to
           establish probable cause for a warrant at this late a date. Therefore,
           without a subject’s consent, we would be unable to legally obtain the
           directed samples.




                                                                                           DODIG 2014-029 │ 11
Finding



                              “Security Forces will direct (through all MAJCOMS) an effort to collect
                              through voluntary consent the 34 DNA samples for inclusion into
                              CODIS. However, parameters concerning probable cause could prevent
                              the collection if an individual refuses to consent or if the individual is
                              no longer under military (UCMJ) control. It is the AFSFC opinion that
                              without a subject’s consent, we would be unable to legally obtain the
                              directed samples.”


                  Our Response
                  We did not modify the original number of 87 DNA samples we reported as not in
                  CODIS. The Air Force had a final compliance rate of 78 percent. The Air Force reasoned
                  that if AFOSI or Security Forces did not conduct the investigation for these criminal
                  offenders then DoDI 5505.14 does not apply. We disagree. Because Air Force law
                  enforcement did not conduct an investigation does not negate the Service’s requirement
                  to collect and submit a DNA sample to CODIS.

                  DoDI 5505.14, Enclosure 3, section 3(b) states “DNA will be collected when court-
                  martial charges are preferred in accordance with Rule for Court-Martial 307, Reference
                  (k), if a DNA sample has not already been submitted.” The Instruction further requires
                  in Enclosure 2, section 2(c)(1) that “Commanders coordinate with the appropriate
                  law enforcement organization to ensure DNA samples are taken and processed as
                  required by section 3 of Enclosure 3.”

                  The 23 individuals the Air Force recommended removing were convicted of qualifying
                  offenses by special or general court-martial. Additionally, the absence of a criminal
                  investigation does not eliminate other legal or policy requirements to provide DNA
                  or other criminal history data. In this instance, federal law requires DNA be collected
                  and submitted to CODIS for anyone convicted of a qualifying offense regardless of the
                  type of investigation.

                  The Air Force concurred with our recommendation to take prompt action to submit the
                  missing DNA samples required to be in CODIS. They advised they would take immediate
                  action to locate individuals and obtain consent to take the DNA sample. We agreed with
                  their efforts to obtain voluntary consent. The Air Force, like the Army, similarly reasoned
                  that without voluntary consent they lacked legal authority to collect the samples. As
                  noted in addressing the Army comments, we think the Air Force should attempt to
                  determine if a collection is possible in accordance with 42 U.S.C. §14135(a).




12 │ DODIG 2014-029
                                                                                                 Finding



Coast Guard Comments
The Coast Guard responded that they concurred with the findings of 3 DNA samples
not in CODIS. With respect to our recommendation to take prompt action to submit the
missing DNA samples required to be in CODIS, the Coast Guard said they would locate
and attempt to obtain consent to collect and submit the missing samples advising:

            “We propose the following course of action with respect to the three
            qualifying subjects: as the three qualifying subjects are no longer under
            the control of the Coast Guard, the Coast Guard will seek voluntary DNA
            sample submissions from these individuals.”


Our Response
The Coast Guard had a final compliance rate of 93 percent. We agreed with the Coast
Guard’s actions in attempting to obtain samples not in CODIS. However, as we discussed
in our response to the Army, there are additional options available to collect the
missing samples, and we believe the Coast Guard should pursue all possible avenues in
its efforts to collect and submit the required samples to CODIS.

      2.	   We recommend the Secretaries of the Military Departments and
            Commandant of the Coast Guard take prompt action to ensure DNA
            sample collections for future arrestees and convicted offenders conform
            to DoDI 5505.14.

Army Comments
The Army concurred with our recommendation advising that CID has issued guidance
emphasizing the requirements and importance of collecting DNA samples from arrestees
and convicted offenders.


Our Response
The management comments are responsive.


Navy Comments
The Navy concurred with our recommendation advising:

            “The NCIS implemented the policy for NCIS investigations on February 6,
            2012. Since that time, NCIS has worked to ensure full compliance with
            DODI 5505.14, to include documenting the DNA submission to the
            Consolidated Law Enforcement Operations Center (CLEOC) case
            reporting system.”




                                                                                        DODIG 2014-029 │ 13
Finding



                  Our Response
                  The management comments are responsive.


                  Air Force Comments
                  The Air Force concurred with our recommendation advising they are redesigning
                  investigative databases to track DNA collections and submissions.


                  Our Response
                  The management comments are responsive.


                  Marine Corps Comments
                  See Navy management comments.


                  Coast Guard Comments
                  The Coast Guard did not provide management comments.




14 │ DODIG 2014-029
                                                                                             Appendices




Appendix A
References
Federal Law
10 U.S.C. § 1565, “DNA Identification Information: Collection from Certain Offenders.”
Requires the Military Departments and the Department of Homeland Security to collect
a DNA sample from each member of the armed forces, under their jurisdiction, who has
been convicted of a “qualifying offense.”

28 CFR 28.12 (b), “Collection of DNA Samples.” Requires any agency of the United States
that arrests or detains individuals or supervises individuals facing charges to collect
DNA samples from individuals who are arrested, facing charges, or convicted, and from
non-United States persons who are detained under the authority of the United States.

42 U.S.C. § 14132, “Index to Facilitate Law Enforcement Exchange of DNA Identification
Information.” Authorizes the FBI Director to establish and maintain a national index of
DNA identification records on persons for law enforcement purposes.

42 U.S.C. § 14135a, “Collection and Use of DNA Identification Information from Certain
Federal Offenders.” Authorizes the collection of DNA from individuals who are arrested,
facing charges, or convicted and from non-United States persons who are detained under
the authority of the United States.

73 Fed. Reg. 74932, 28 CFR Part 28, “DNA-Sample Collection and Biological Evidence
Preservation in the Federal Jurisdiction.” The Department of Justice (DOJ), by this
publication, amended regulations relating to DNA-sample collection in the federal
jurisdiction. This rule generally directed federal agencies to collect DNA samples from
individuals who were arrested, facing charges, or convicted, and from non-United States
persons who are detained under the authority of the United States, subject to certain
limitations and exceptions. By this rule, the DOJ also finalized, without change, two
related interim rules concerning the scope of qualifying federal offenses for purposes of
DNA-sample collection and a requirement to preserve biological evidence in federal
criminal cases in which defendants were under sentences of imprisonment. This rule
was effective January 9, 2009.




                                                                                        DODIG 2014-029 │ 15
Appendices



                  P.L. 109-162, Title X, “DNA Fingerprint Act of 2005.” Established an opt-out system for
                  expunging DNA profiles from the National DNA Index System. Authorized collecting DNA
                  samples from persons arrested or detained under Federal authority.


                  DoD Issuances
                  DoD Instruction 5505.14, “Deoxyribonucleic Acid (DNA) Collection Requirements
                  for Criminal Investigations,” May 27, 2010 (incorporating Change 1, April 24, 2012).
                  Establishes policy, assigns responsibility, and sets forth instruction for collecting DNA in
                  criminal investigations.

                  DoD Instruction 5505.11, “Fingerprint Card and Final Disposition Report Submission
                  Requirements,” July 9, 2010 (incorporating Change 1, May 3, 2011).              Establishes
                  policy, assigns responsibility, and sets forth instruction to report offender criminal
                  history data to the Criminal Justice Information Services Division of the Federal Bureau
                  of Investigation (FBI) for inclusion in the National Crime Information Center criminal
                  history database.


                  Service and USCG Issuances
                  U.S. Army Criminal Investigative CID Regulation 195–1, “Army Criminal Investigation
                  Program,” March 22, 2010 and January 6, 2012.

                  U.S. Army Regulation 190-45, “Military Police Law Enforcement Reporting,”
                  March 30, 2007.

                  All Army Activities (ALARACT) ALARACT 131/2013.

                  U.S. Army CID Operational Memorandum 003-11, DNA Collection Requirements for
                  Criminal Investigations - Issues with Arrestee Submissions, March 9, 2011.

                  U.S. Army CID Operational Memorandum 011-11, DNA Collection Requirements for
                  Criminal Investigations-Arrestees, October 20, 2011.

                  OPNAV Instruction 5800.9, Collection of DNA Samples from Military Offenders Convicted
                  of Qualifying Military Offenses (QMO), Dec 14, 2006.

                  BUPERS Notice 1640, DNA Collection Requirements for Criminal Investigations,
                  August 16, 2010.




16 │ DODIG 2014-029
                                                                                         Appendices



BUPERSINST 1640.22, Article 1640-080, page 9 of 36, DNA Sample Collection Program,
March 29, 2011
Message: 275362, Procedures for Collection of DNA for Criminal Investigations,
08 Jul 2010.

Policy Memorandum 02-10, Head, Corrections Section, Security Division, Plans.

Air Force Instruction 51-201, “Administration of Military Justice,” December 21, 2007
through Interim Change 1, February 3, 2010.

Air Force Office of Special Investigations Manual 71-118V4, “General Investigative
Methods,” Incorporating All Changes Through Change 4 (IC-4, March 1, 2013).

Air Force Office of Special Investigations Manual 71-121, “Processing and Reporting
Investigative Matters,” January 13, 2009, Incorporating All Changes Through Change 5
(IC-5, October 12, 2012).

Air Force Instruction 31-205, “The Air Force Corrections System,” April 7, 2004,
Incorporating Change 1, July 6, 2007.

United States Marine Corps, Policy Memorandum 01-10, Marine Corps Facilities DNA
Collection Responsibilities, May 18, 2010.

Commandant Instruction M1600.2, “Discipline and Conduct,” September 29, 2011.

Commandant Instruction M5527.1 (series), “Coast Guard Investigations Manual,” current
edition. Restricted USCG document. Contact US Coast Guard Freedom of Information Act
Office (http://www.uscg.mil/foia/) to obtain investigated offense listing.


Supplemental Guidance
Congressional Research Service Report, DNA Testing in Criminal Justice: Background,
Current Law, Grants, and Issues. December 7, 2011.




                                                                                    DODIG 2014-029 │ 17
Appendices




                  Appendix B
                  Description of Qualifying Offenses
                  DoDI 5505.11, Fingerprint Card and Final Disposition Report
                  Submission Requirements, July 9, 2010, Incorporating
                  Change 1, May 3, 2011, Enclosure 2 Offenses.
                  The following offenses are pursuant to the punitive articles of the UCMJ and require
                  submission of offender criminal history data to the CJIS Division, FBI, by the DCIOs and all
                  other DoD law enforcement organizations.

                      Article                                     Offense Description
                        78       Accessory after the fact (for crimes listed in this enclosure)
                        80       Attempts (for crimes listed in this enclosure)
                        81       Conspiracy (for crimes listed in this enclosure)
                        82       Solicitation
                        85       Desertion
                        90       Striking or assaulting a superior commissioned officer
                        91       Striking or assaulting a warrant, noncommissioned, or petty officer
                        94       Mutiny and sedition
                        95       Resistance, flight, breach of arrest, and escape
                        97       Unlawful detention
                       106       Spies
                      106a       Espionage
                       107       False Official Statements

                       108       Military property of the United States – sale, loss, damage, destruction, or wrongful
                                 disposition
                                 Property other than military property of the United States – waste, spoilage, or
                       109       destruction
                       111       Drunken or reckless operation of vehicle, aircraft, or vessel
                      112a       Wrongful use, possession, etc, of controlled substances
                       116       Riot or breach of peace
                       118       Murder
                       119       Manslaughter
                      119a       Death or injury of an unborn child
                       120       Rape and carnal knowledge (for offenses committed prior to October 1, 2007)




18 │ DODIG 2014-029
                                                                                                       Appendices



Article                                    Offense Description
          Rape, sexual assault, and other sexual misconduct (for offenses committed on or
 120      after October 1, 2007)
120a      Stalking (for offenses committed on or after October 1, 2007)
 121      Larceny and wrongful appropriation
 122      Robbery
 123      Forgery
123a      Making, drawing, or uttering check, draft, or order without sufficient funds
 124      Maiming
 125      Sodomy
 126      Arson
 127      Extortion
 128      Assault
 129      Burglary
 130      Housebreaking
 131      Perjury
 132      Frauds against the United States
 134      The following offenses pursuant to Article 134
  a.      Assault - Indecent (for offenses committed prior to October 1, 2007)
          Assault – with intent to commit murder, voluntary manslaughter, rape, robbery,
  b.      sodomy, arson, burglary, or housebreaking
  c.      Bribery and graft
  d.      Burning with intent to defraud
  e.      Child endangerment (for offenses committed on or after October 1, 2007)
          Child pornography offenses, to include possession, distribution, production, receipt,
  f.      viewing, and accessing (added Change 1, May 3, 2011).
  g.      Correctional custody – offense against
  h.      False or unauthorized pass offenses
  i.      False pretenses, obtaining services under
  j.      False swearing
  k.      Firearm, discharge – willfully, under such circumstances as to endanger human life
  l.      Fleeing the scene of an accident
  m.      Homicide, negligent
          Impersonating a commissioned, warrant, noncommissioned, or petty officer, or an
  n.      agent or official
          Indecent acts or liberties with a child (for offenses committed prior to
  o.      October 1, 2007)




                                                                                                  DODIG 2014-029 │ 19
Appendices



                      Article                                    Offense Description
                        p.      Indecent exposure (for offenses committed prior to October 1, 2007)
                        q.      Indecent language
                        r.      Indecent acts with another (for offenses committed prior to October 1, 2007)
                        s.      Kidnapping
                        t.      Mail: taking, opening, secreting, destroying, or stealing
                        u.      Mail: depositing or causing to be deposited obscene matters in
                        v.      Misprision of serious offense
                        w.      Obstructing justice
                        x.      Wrongful interference with an adverse administrative proceeding
                                Pandering and prostitution (having someone commit an act of prostitution is still an
                        y.      offense pursuant to Article 134, but if the pandering is “compelled,” it becomes an
                                Article 120 offense, on or after October 1, 2007)
                        z.      Perjury: subornation of
                       aa.      Public record: altering, concealing, removing, mutilating, obliterating, or destroying
                       ab.      Reckless endangerment
                       ac.      Seizure: destruction, removal, or disposal of property to prevent
                       ad.      Self-injury without intent to avoid service
                       ae.      Soliciting another to commit an offense (for crimes listed in this enclosure)
                        af.     Stolen property
                       ag.      Testify: Wrongful refusal
                       ah.      Threat or hoax designed or intended to cause panic or public fear
                        ai.     Threat, communicating
                        aj.     Weapon: concealed, carrying




20 │ DODIG 2014-029
                           Appendices




Appendix C
Management Comments
Army Comments




                      DODIG 2014-029 │ 21
Appendices



                  Army Comments (cont’d)




22 │ DODIG 2014-029
                                 Appendices



Navy/USMC (NCIS) Comments




                            DODIG 2014-029 │ 23
Appendices



                  Navy/USMC (NCIS) Comments




24 │ DODIG 2014-029
                                          Appendices



Navy/USMC (NCIS) Comments (cont’d)




                                     DODIG 2014-029 │ 25
Appendices



                  Air Force Comments




26 │ DODIG 2014-029
                                   Appendices



Air Force Comments (cont’d)




                              DODIG 2014-029 │ 27
Appendices



                  Air Force Comments (cont’d)




28 │ DODIG 2014-029
                                 Appendices



U.S. Coast Guard Comments




                            DODIG 2014-029 │ 29
Management Comments



                  U.S. Coast Guard Comments (cont’d)




30 │ DODIG 2014-029
                                                        Acronyms and Abbreviations




Acronyms and Abbreviations
   CODIS Combined DNA Index System
   DCIO Defense Criminal Investigative Organizations
    DNA Deoxyribonucleic Acid
     JAG Judge Advocate General
   MCIO Military Criminal Investigative Organizations
  USACIL U.S. Army Criminal Investigation Laboratory
   U.S.C. United States Code




                                                                   DODIG 2014-029 │ 31
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
